U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Arman Eritsian v. Merrick B. Garland, Attorney General,
S.Ct. No. 21-11
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 2, 2021,
and placed on the docket on July 7, 2021. The government’s response is due on August 6, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 6, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

21-0011
ERITSIAN, ARMAN
MERRICK B. GARLAND, ATTORNEY GENERAL

ASHLEY DEADWYLER-HEUMAN
DEADWYLER-HEUMAN LAW FIRM, LLC
PO BOX 6255
MACON, GA 31208
478-621-4300
IRA J. KURZBAN
KURZBAN KURZBAN WEINGER TETZELI &
PRATT, P.A.
131 MADEIRA AVENUE
CORAL GABLES, FL 33134
305-444-0060
IRA@KKTPLAW.COM

